NO.

 

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

 

Beau Brandon Croghan - Petitioner,
vs.

United States of America - Respondent.

 

PROOF OF SERVICE

 

I, Brad Hansen, appointed counsel of record for Petitioner Beau Brandon
Croghan, hereby certify that on January 18, 2021, I emailed a copy of Mr. Croghan’s
petition for writ of certiorari and supporting documents to the Solicitor General of
the United States at SupremeCtBriefs@usdoj.gov. Upon any request, the
undersigned attorney will send a paper copy of any filing to the Solicitor General. I
hereby certify that all parties required to be served have been served.

RESPECTFULLY SUBMITTED,
By:

Brad Hansen

Acting Federal Public Defender
400 Locust Street, Suite 340
Des Moines, Iowa 50309
TELEPHONE: (515) 309-9610
FAX: (515) 309-9625

EMAIL: brad_hansen@fd.org

ATTORNEY FOR PETITIONER
